                                          May 18, 2012



Mr. Michael S. Gibson
Director, Division of Banking Supervision and Regulation
Board of Governors of the Federal Reserve System
Washington, D.C. 20551

Dear Mr. Gibson:

     Consistent with the requirements of section 38(k) of the Federal Deposit Insurance Act,
12 U.S.C. 1831o(k), as amended by the Dodd-Frank Wall Street Reform and Consumer
Protection Act, the Office of Inspector General of the Board of Governors of the Federal
Reserve System (Federal Reserve Board) conducted a material loss review of Community
Banks of Colorado (CBC). Under section 38(k) of the Federal Deposit Insurance Act, as
amended, a material loss to the Deposit Insurance Fund (DIF) is defined as an estimated loss in
excess of $200 million. Pursuant to the Dodd-Frank Wall Street Reform and Consumer
Protection Act, this threshold applies if the loss occurred between January 1, 2010, and
December 31, 2011. The Federal Deposit Insurance Act requires that we

     ·   ascertain why the institution’s problems resulted in a material loss to the DIF

     ·   review the agency’s supervision of the failed institution, including the agency’s
         implementation of prompt corrective action

     ·   make recommendations for preventing any such loss in the future

      CBC was supervised by the Federal Reserve Bank of Kansas City (FRB Kansas City),
under delegated authority from the Federal Reserve Board, and by the Colorado Division of
Banking. The Federal Reserve Board appointed the Federal Deposit Insurance Corporation
(FDIC) as receiver for CBC on October 21, 2011. On November 18, 2011, the FDIC Office of
Inspector General notified our office that CBC’s failure would result in a $225 million loss to the
DIF, or 17.3 percent of the bank’s $1.3 billion in total assets at closing. This material loss
required a review by our office.

      CBC failed because its board of directors and management did not adequately control the
risks associated with the bank’s growth strategy. The bank expanded within Colorado by
merging with multiple banks and establishing new branch locations from 2003 to 2007. This
strategy significantly increased the bank’s commercial real estate (CRE) lending activities,
particularly in construction, land, and land development loans. The board of directors’ and
Mr. Michael S. Gibson                            2                                   May 18, 2012


management’s failure to effectively manage CBC’s CRE credit risk, coupled with weakening
real estate markets, led to asset quality deterioration. Mounting losses depleted earnings and
eroded capital, which prompted the Federal Reserve Board to appoint the FDIC as receiver on
October 21, 2011.

      With respect to supervision, FRB Kansas City complied with the examination frequency
guidelines for the time frame we reviewed, 2007 through 2011, and conducted regular off-site
monitoring. Our analysis of FRB Kansas City’s supervision of CBC revealed that FRB Kansas
City identified the bank’s heightened credit risk and its potential threat to capital but should
have taken earlier supervisory action to address those issues. Specifically, we believe that
during the November 2007 examination

     ·   FRB Kansas City should have closely scrutinized CBC’s risk management practices
         and its credit risk exposure due to CBC’s elevated credit concentration, Colorado’s
         declining real estate market conditions, and examiners’ acknowledgement of the risks
         to CBC’s capital. In addition, FRB Kansas City should have assessed the bank’s asset
         quality using a forward-looking examination approach that considered potential risks to
         CBC’s overall financial condition in a declining economy, as well as the current
         condition of the bank’s asset quality. We believe that such an approach would have
         resulted in a component downgrade for the bank’s asset quality. In our opinion, FRB
         Kansas City’s triple downgrade for CBC’s asset quality component assigned during the
         October 2008 examination supports that more aggressive action during the November
         2007 examination was needed.

     ·   FRB Kansas City should have strongly encouraged CBC to raise additional capital
         commensurate with the bank’s credit risk exposure. FRB Kansas City officials noted to
         us, in hindsight, the need for additional capital to mitigate CBC’s increasing credit risk.
         In our opinion, the bank’s window of opportunity to raise additional capital closed after
         the November 2007 examination.

       We also believe that the November 2009 full-scope examination provided an opportunity
for stronger supervisory action. In our opinion, FRB Kansas City should have downgraded the
management component rating to 5 and considered the need for an independent assessment of
CBC management’s qualifications and the need for additional managerial resources. In our
opinion, the examination report showed that management (1) failed to comply with the written
agreement, (2) created an unacceptable capital plan that lacked realistic loan loss projections or
firm commitments for new capital, (3) failed to demonstrate the ability to resolve problems or
fully implement effective risk management practices, and (4) failed to create a culture that
encouraged problem loan recognition.

      In our opinion, when FRB Kansas City approved a February 2010 application from CBC’s
bank holding company to merge an affiliated state member bank, Community Banks of Northern
California, into CBC, FRB Kansas City appropriately analyzed the effect of the proposed merger
and made a reasonable decision to allow the merger, which afforded the bank holding company
additional time to attempt to raise capital.
Mr. Michael S. Gibson                            3                                   May 18, 2012


     While we believe that FRB Kansas City had opportunities for earlier supervisory
responses, we cannot predict the effectiveness or outcome of any measures that might have been
taken. Therefore, we cannot evaluate the degree to which an earlier or alternative supervisory
response would have affected CBC’s financial deterioration or the ultimate cost to the DIF.
      We believe that CBC’s failure offers lessons learned that can be applied to those who
supervise banks with similar characteristics and circumstances. CBC’s failure illustrates (1) a
bank’s vulnerability to changes in real estate markets when the bank’s strategy features a high
concentration in CRE loans, (2) the importance of a bank timely implementing a robust credit
risk management program designed to facilitate the identification and management of
concentrations, and (3) the importance of a forward-looking examination approach that assesses
various risk factors that could affect a bank’s condition.

      We provided a draft of our report to the Federal Reserve Board’s Division of Banking
Supervision and Regulation for review and comment. The Division Director stated that Banking
Supervision and Regulation staff concurred with the conclusions and lessons learned in the
report. His response is included as appendix 3.

     We appreciate the cooperation that we received from FRB Kansas City and Federal
Reserve Board staff during our review. The principal contributors to this report are listed in
appendix 4.

      This report will be added to our public website and will be summarized in our next
semiannual report to Congress. Please contact me if you would like to discuss this report or any
related issues.

                                            Sincerely,




                                       Anthony J. Castaldo
                                   Associate Inspector General
                                 for Inspections and Evaluations

cc:   Chairman Ben S. Bernanke
      Vice Chair Janet L. Yellen
      Governor Daniel K. Tarullo
      Governor Elizabeth A. Duke
      Governor Sarah Bloom Raskin
      Mr. Kevin L. Moore
Office of Inspector General

   Material Loss Review of
 Community Banks of Colorado




 Board of Governors of the Federal Reserve System


                                               May 2012
Abbreviations
ALLL                    Allowance for Loan and Lease Losses
California DFI          California State Department of Financial Institutions
CBC                     Community Banks of Colorado
CBNC                    Community Banks of Northern California
CLD                     Construction, Land, and Land Development
CRE                     Commercial Real Estate
DIF                     Deposit Insurance Fund
FDI Act                 Federal Deposit Insurance Act, as amended
FDIC                    Federal Deposit Insurance Corporation
Federal Reserve Board   Board of Governors of the Federal Reserve System
FRB Kansas City         Federal Reserve Bank of Kansas City
OIG                     Office of Inspector General
PCA                     Prompt Corrective Action
SR Letter               Supervision and Regulation Letter
State                   Colorado Division of Banking




                                              7
                                                       Table of Contents


                                                                                                                                      Page
Background .............................................................................................................................. 11

Objectives, Scope, and Methodology ...................................................................................... 12

Cause of the Failure ................................................................................................................. 12

  Growth Strategy Contributed to Concentrations in CBC’s Loan Portfolio ............................ 12

  Weak Credit Risk Management Practices, Coupled with Local Economic Declines,
  Led to Increased Classified Assets ......................................................................................... 15

  March 2010 Merger of CBNC into CBC Led to Increased Classified Assets ........................ 16

  Asset Quality Deterioration Resulted in Increased Loan Loss Provisions and
  Depleted Capital...................................................................................................................... 17

Supervision of CBC.................................................................................................................. 18

  November 2007 Full-Scope Examination Resulted in a CAMELS
  Composite 2 Rating................................................................................................................. 19

  October 2008 Joint Full-Scope Examination Resulted in a Double
  Downgrade to a CAMELS Composite 4 Rating and a Written Agreement ........................... 20

  June 2009 Target Examination Maintained a CAMELS Composite 4 Rating ....................... 22

  November 2009 Joint Full-Scope Examination Resulted in a Downgrade to a
  CAMELS Composite 5 Rating ............................................................................................... 22

  FRB Kansas City Approved Merger of CBNC, Affording Community Bankshares More
  Time to Raise Capital.............................................................................................................. 23

  July 2010 Target Examination Maintained a CAMELS Composite 5 Rating ........................ 24

  January 2011 Joint Full-Scope Examination Resulted in Another
  CAMELS Composite 5 Rating and a PCA Directive ............................................................. 25

  July 2011 Target Examination Maintained a CAMELS Composite 5 Rating ........................ 25

  FDIC Disapproved CBC’s Plan to Sell Branches and Became Receiver for CBC ................ 26


                                                                      9
Conclusions and Lessons Learned.......................................................................................... 27

  Lessons Learned...................................................................................................................... 28

Analysis of Comments ............................................................................................................. 28

Appendixes................................................................................................................................ 29

  Appendix 1—Glossary of Banking and Regulatory Terms .................................................... 31

  Appendix 2—CAMELS Rating System ................................................................................. 35

  Appendix 3—Division Director’s Comments ........................................................................ 39

  Appendix 4—Principal Contributors to This Report .............................................................. 41




                                                                      10
Background
Community Banks of Colorado (CBC) was a state member bank headquartered in Greenwood
Village, Colorado. CBC had as many as 37 branches in Colorado and 4 branches in California.
CBC’s business activities focused on commercial real estate (CRE) lending, specifically
construction, land, and land development (CLD) lending, in the state of Colorado, particularly in
the Denver metropolitan area and the surrounding mountain resort markets.

CBC was wholly owned by Community Bankshares, Inc. Community Bankshares owned two
other banks in Colorado (Community Banks of Southern Colorado and Community Banks of the
Rockies), which were merged into CBC in 2004, and one in California (Community Banks of
Northern California (CBNC)), which was merged into CBC in 2010. The Federal Reserve Bank
of Kansas City (FRB Kansas City), under delegated authority from the Board of Governors of
the Federal Reserve System (Federal Reserve Board), and the Colorado Division of Banking
(State) supervised CBC.

Due to FRB Kansas City’s concerns about the continued viability of CBC given its deteriorating
capital position, the Federal Reserve Board appointed the Federal Deposit Insurance Corporation
(FDIC) as receiver on October 21, 2011. The FDIC estimated that CBC’s failure would result in
a $225 million loss to the Deposit Insurance Fund (DIF), or 17.3 percent of the bank’s
$1.3 billion in total assets at closing. On November 18, 2011, the FDIC Office of Inspector
General (OIG) notified our office that CBC’s failure would result in a material loss to the DIF.
Under section 38(k) of the Federal Deposit Insurance Act, as amended (FDI Act), a material loss
to the DIF is defined as any estimated loss in excess of $200 million. Pursuant to the Dodd-
Frank Wall Street Reform and Consumer Protection Act, this threshold applies if the loss
occurred between January 1, 2010, and December 31, 2011. When a loss to the DIF is
considered material, section 38(k) of the FDI Act requires that the Inspector General of the
appropriate federal banking agency

   ·   ascertain why the institution’s problems resulted in a material loss to the DIF

   ·   review the agency’s supervision of the failed institution, including the agency’s
       implementation of prompt corrective action (PCA)

   ·   make recommendations for preventing any such loss in the future

The remainder of this report consists of five major sections. The Objectives, Scope, and
Methodology section describes the purpose of our review, the review period, and the standards
governing our review. The Cause of the Failure section contains our assessment of the
contributing causes that led to the bank’s failure. The Supervision of CBC section provides an
examination-by-examination description of FRB Kansas City’s and the State’s supervision of the
institution and assesses FRB Kansas City’s supervisory approach. The Conclusions and Lessons
Learned section summarizes the results of our analysis and describes the lessons to be learned
from this failure. The Analysis of Comments section includes an assessment of our findings and
observations by the Director of the Federal Reserve Board’s Division of Banking Supervision


                                                11
and Regulation. Appendixes at the end of this report include a glossary of key banking and
regulatory terms and a description of the CAMELS rating system. 1

Objectives, Scope, and Methodology
This evaluation sought to determine why CBC’s failure resulted in a material loss to the DIF and
to assess FRB Kansas City’s supervision of CBC during our period of review, 2007 through
2011. We conducted our fieldwork from December 2011 through March 2012 in accordance
with the Quality Standards for Inspection and Evaluation issued by the Council of the Inspectors
General on Integrity and Efficiency.

To accomplish our objectives, we reviewed the Federal Reserve System’s Commercial Bank
Examination Manual and relevant supervisory guidance. We interviewed staff and collected
relevant data from FRB Kansas City, the State, and the Federal Reserve Board. We also
reviewed correspondence, surveillance reports, regulatory reports filed by CBC, examination
reports issued from 2007 through 2011, examination work papers prepared by FRB Kansas City,
and relevant FDIC documents.

We coordinated our review with the FDIC OIG. The FDIC OIG provided assistance by
(1) establishing the facts and circumstances surrounding the FDIC’s involvement in the
supervisory activities related to CBC and (2) assessing the FDIC’s application of the least-cost
test that was performed for purposes of determining a resolution strategy. 2

Cause of the Failure
CBC failed because its board of directors and management did not adequately control the risks
associated with the bank’s growth strategy. The bank expanded within Colorado by merging
with multiple banks and establishing new branch locations from 2003 to 2007. This strategy
significantly increased the bank’s CRE lending activities, particularly in CLD loans. The board
of directors’ and management’s failure to effectively manage CBC’s CRE credit risk, coupled
with weakening real estate markets, led to asset quality deterioration. Mounting losses depleted
earnings and eroded capital, which prompted the Federal Reserve Board to appoint the FDIC as
receiver on October 21, 2011.

Growth Strategy Contributed to Concentrations in CBC’s Loan Portfolio

CBC pursued a growth strategy that included acquiring other institutions through merger activity
and expanding its branch network. In 2004, CBC’s board of directors and management
consolidated and merged into CBC two affiliated Colorado state member banks, Community
Banks of Southern Colorado and Community Banks of the Rockies, which expanded the bank’s

    1
       The CAMELS acronym represents six components: capital adequacy, asset quality, management practices,
earnings performance, liquidity position, and sensitivity to market risk. Each component and overall composite
score is assigned a rating of 1 through 5, with 1 indicating the least regulatory concern and 5 the greatest concern.
     2
       In determining the least costly approach of liquidating any depository institution, the FDIC evaluates
alternatives, documents that evaluation, and selects the least costly action based on the analysis.

                                                          12
branch network. In addition, CBC opened 15 new branches throughout Colorado from 2003 to
2007. According to the bank’s 2007 five-year growth and performance plan, CBC intended to
double its size by 2012 with additional branches and acquisitions. As shown in chart 1, the
bank’s total assets more than quadrupled from approximately $406 million in 2002 to a peak of
$1.7 billion by year-end 2009. CBC also added 4 branches in California in 2010 when CBNC
merged into it.

      Chart 1: CBC’s Total Assets, 2002–2011*

                          $2,000,000
                          $1,800,000
                          $1,600,000
                          $1,400,000
         (000s omitted)




                          $1,200,000
                          $1,000,000
                           $800,000
                           $600,000
                           $400,000
                           $200,000
                                  $0
                                       2002   2003   2004   2005    2006 2007   2008   2009   2010 2011*
                                                                     Year-end

      *As of September 30, 2011.


As the board of directors and management executed CBC’s growth strategy, the bank’s loan
portfolio—primarily its real estate loan portfolio—grew. From 2005 through 2008, CBC’s total
loans increased from $930 million to $1.5 billion. During this time period, CRE loans increased
84 percent, from $488 million to $898 million, and CLD loans increased 137 percent, from
$247 million to $586 million. As illustrated in chart 2 on the next page, by 2008 CRE and CLD
loans accounted for nearly 60 percent of CBC’s loan portfolio. In addition, a significant portion
of the bank’s loan portfolio was further concentrated in residential, condominium, and mixed-use
real estate properties located in various Colorado mountain resort markets and in the Denver
metropolitan area.




                                                               13
                 Chart 2: CBC’s Loan Portfolio Composition, 2005–2011*

                                   $1,600,000
                                   $1,400,000
                                   $1,200,000
                                   $1,000,000
                  (000s omitted)


                                    $800,000                                            All other loans
                                                                                        Other CRE
                                    $600,000
                                                                                        CLD
                                    $400,000
                                    $200,000
                                          $0
                                                2005 2006 2007 2008 2009 2010 2011*
                                                              Year-end
                 *As of September 30, 2011.



As CBC’s loan portfolio grew, the bank’s CRE and CLD loan concentrations consistently
presented an elevated concentration risk. 3 As shown in chart 3a on the next page, CBC’s CRE
loan concentration as a percentage of total capital ranged from 514 percent to 596 percent during
2007–2009, exceeding its peer-group average. 4 As illustrated in chart 3b on the next page, the
bank’s CLD loan concentration also consistently exceeded its peer-group average and remained
above 330 percent. In 2010 and 2011, while CBC’s CRE and CLD loans decreased due to loan
write-offs, a substantial decline in the bank’s capital caused its loan concentrations to spike
because total capital is the denominator used to calculate concentration percentages. In general,
credit concentrations increase a financial institution’s vulnerability to changes in the marketplace
and compound the risks inherent in individual loans.




    3
       According to the Federal Reserve Board’s Supervision Regulation Letter 07-1, Interagency Guidance on
Concentrations in Commercial Real Estate Lending, an institution presents potential significant CRE concentration
risk if (1) total reported CLD loans represent 100 percent or more of an institution’s total capital or (2) total CRE
loans represent 300 percent or more of the institution’s total capital, and the outstanding balance of the institution’s
CRE loan portfolio has increased by 50 percent or more during the prior 36 months.
     4
       CBC was in peer group 2 from 2007 to 2011. Peer group 2 consisted of all insured commercial banks having
assets of $1 billion–$3 billion.

                                                                14
    Chart 3a: Total CRE Loan Concentration                                                   Chart 3b: Total CLD Loan Concentration

                                                     1600%                                                                                    700%
        Total CRE as a percentage of total capital




                                                                                                 Total CLD as a percentage of total capital
                                                     1400%                                                                                    600%
                                                     1200%
                                                                                                                                              500%
                                                     1000%
                                                                                                                                              400%
                                                     800%
                                                                                                                                              300%
                                                     600%
                                                                                                                                              200%
                                                     400%

                                                     200%                                                                                     100%

                                                       0%                                                                                      0%
                                                               2007 2008 2009 2010 2011*                                                             2007 2008 2009 2010 2011*
                                                                    Year-end                                                                                Year-end

                                                        CBC                                                                                      CBC
                                                        Peer                                                                                     Peer
                                                        Regulatory guidance for total CRE                                                        Regulatory guidance for total CLD

   *As of September 30, 2011.                                                                *As of September 30, 2011.


Weak Credit Risk Management Practices, Coupled with Local Economic Declines, Led to
Increased Classified Assets

According to examiners, CBC’s credit risk management practices did not adequately identify,
measure, monitor, and control risks. Despite CBC’s early efforts to implement the CRE risk
management practices described in Supervision and Regulation Letter (SR Letter) 07-1,
Interagency Guidance on Concentrations in Commercial Real Estate Lending, examiners
repeatedly cited weaknesses and deficiencies in the bank’s CRE risk management program and
stress-testing practices. 5 Examiners added that management needed to reduce the bank’s CRE
exposure and implement strategies to improve loan portfolio diversification. In addition,
examiners expressed “grave concern” regarding (1) deficiencies in identifying problem loans,
(2) an ineffective loan review process, and (3) inaccurate internal loan grading.

Beginning in 2008, declining economic conditions in the bank’s market areas resulted in
significant asset quality deterioration. Examiners stated that the distressed condition of the loan
portfolio resulted from strategic decisions of CBC’s board of directors and management that

    5
      The Federal Reserve Board, the Office of the Comptroller of the Currency, and the FDIC issued final
interagency guidance that preceded the release of SR Letter 07-1. 71 Fed. Reg. 74,580 (2006). SR Letter 07-1
indicates that the previously issued guidance applies to state member banks.


                                                                                            15
caused excessive concentrations in CRE and CLD loans, which were adversely affected by
declining real estate market conditions. As shown in chart 4, CBC’s classified assets increased
from $23 million to $135 million, or 487 percent, from the November 2007 examination to the
October 2008 examination. Examiners noted that CBC’s classified assets as a percentage of the
bank’s tier 1 capital and allowance for loan and lease losses (ALLL) continued to increase, from
14 percent during the November 2007 examination to 353 percent during the July 2011
examination. We believe that the absence of appropriate risk management practices, including
effective credit administration, increased CBC’s risk profile and vulnerability to declines in the
real estate market.

           Chart 4: Classified Assets

                                $350,000

                                $300,000

                                $250,000
              ($000s omitted)




                                $200,000

                                $150,000

                                $100,000

                                 $50,000

                                     $0
                                           Nov 07   Oct 08   Jun 09 Nov 09 Jul 10   Jan 11   Jul 11
                                                                Examination date




March 2010 Merger of CBNC into CBC Led to Increased Classified Assets

In February 2010, FRB Kansas City received an application outlining Community Bankshares’
plan to merge another affiliated institution, CBNC, into CBC. CBNC, a California state member
bank with $146 million in total assets, was supervised by FRB Kansas City, under delegated
authority from the Federal Reserve Board, and by the California State Department of Financial
Institutions (California DFI). According to examiners, CBNC was in “poor condition,” with a
CAMELS composite 5 rating. 6 The California DFI issued a cease-and-desist order in October
2009 that required CBNC to increase capital by not less than $10 million or enter into a
definitive agreement to merge or sell the bank. Despite Community Bankshares’ effort to raise
capital, it was only able to provide $4.5 million. The California DFI determined that CBNC was
in imminent danger of failure and requested that FRB Kansas City immediately act on the
merger application under emergency procedures.



   6
    FRB Kansas City conducted a target examination of CBNC in November 2009 and assigned a CAMELS
composite 5 rating.

                                                                16
The merger application required in-depth analysis because by February 2010, CBC’s condition
had also deteriorated, and it had a CAMELS composite 4 rating. 7 FRB Kansas City concluded
that merging CBNC into CBC would (1) not significantly impact CBC’s condition due to
CBNC’s size relative to CBC, (2) address potential liability under the FDIC’s cross-guarantee
provisions if CBNC were to fail, 8 and (3) allow Community Bankshares more time to raise
capital. FRB Kansas City approved the merger on February 24, 2010, and the merger of the two
banks became effective on March 1, 2010. In our opinion, FRB Kansas City appropriately
analyzed the effect of the proposed merger; however, the merger further increased CBC’s
classified assets.

Asset Quality Deterioration Resulted in Increased Loan Loss Provisions and Depleted
Capital

The growth in classified assets required corresponding increases in CBC’s loan loss provisions
and adversely affected the bank’s earnings. As shown in chart 5, CBC experienced substantial
losses in 2009 and 2010. A 2009 loan loss provision of $55 million eliminated the bank’s
earnings and resulted in a net loss of $43 million, and a 2010 loan loss provision of $64 million
led to a net loss of $64 million. These net losses significantly eroded CBC’s capital.

              Chart 5: Impact of Provision Expense on Earnings

                                $80,000

                                $60,000

                                $40,000
               (000s omitted)




                                $20,000                                             Provision
                                                                                    expense
                                     $0

                                -$20,000                                            Net
                                                                                    income/loss
                                -$40,000

                                -$60,000

                                -$80,000
                                           2007   2008     2009     2010   2011*
                                                         Year-end
               *As of September 30, 2011.




    7
        FRB Kansas City and the State began a full-scope examination in November 2009. FRB Kansas City’s
February 2010 merger work paper indicated the preliminary result of the examination was a CAMELS composite 5
rating.
      8
        As part of the Financial Institutions Reform, Recovery, and Enforcement Act of 1989, Congress adopted
amendments to the FDI Act implementing the cross-guarantee provisions that allow the FDIC to recoup losses to the
DIF by assessing a claim against insured institutions under common control for losses caused by the failure of an
affiliated insured depository institution.

                                                             17
FRB Kansas City implemented the PCA provisions of the FDI Act and made timely notifications
when the bank reached various PCA categories. In September 2009, FRB Kansas City notified
CBC that the bank had fallen from well capitalized to adequately capitalized under the PCA
guidelines, due to the large loss in 2009.

In November 2010, FRB Kansas City notified CBC that it had become undercapitalized and
required it to submit a capital restoration plan. FRB Kansas City considered CBC’s capital
restoration plan to be unacceptable due to management’s overly optimistic projections and a lack
of firm investor commitments. In February 2011, FRB Kansas City notified the bank that it had
fallen to significantly undercapitalized. The Federal Reserve Board issued a PCA directive on
February 8, 2011, that, among other things, required CBC to raise additional capital to achieve
the adequately capitalized PCA designation or be acquired by or merge with another depository
institution.

CBC’s financial condition continued to deteriorate, and in August 2011, FRB Kansas City
deemed the bank critically undercapitalized. FRB Kansas City notified CBC that unless the
bank improved its PCA status, the Federal Reserve Board would appoint a receiver in 90 days.
CBC’s board of directors and management could not correct the bank’s capital deficiencies and,
on October 21, 2011, the Federal Reserve Board appointed the FDIC as receiver.

Supervision of CBC
FRB Kansas City complied with the examination frequency guidelines for the time frame we
reviewed, 2007 through 2011, and conducted regular off-site monitoring. During the period
covered by our review, FRB Kansas City and the State conducted four full-scope examinations,
three target examinations, and one CRE review; executed two enforcement actions—a written
agreement and a PCA directive; and implemented the applicable PCA provisions.

Our analysis of FRB Kansas City’s supervision of CBC revealed that FRB Kansas City identified
the bank’s heightened credit risk and its potential threat to capital but should have taken earlier
supervisory action to address those issues.




                                                18
Table 1: CBC Supervisory Overview
                        Examination                                         CAMELS Component Ratings




                                                                                     Asset Quality

                                                                                                     Management
                                                             CAMELS




                                                                                                                                         Sensitivity
                                                                                                                             Liquidity
                                                                                                                  Earnings
                                               Agency                                                                                                    Supervisory




                                                                           Capital
                   Report                                    Composite
 Start Date                       Scope      Conducting                                                                                                    Actions
                 Issue Date                                   Rating
                                             Examination


 11/26/2007      02/27/2008        Full          FRB              2         2         1              2            2          2           1

                                   Full          Joint            4         4         4              4            3          3           3             Written agreement
 10/27/2008      02/02/2009a
                                  CRE
                                                 FRB                                                      not applicable
                                 review
 06/08/2009      09/23/2009       Target         FRB b            4         4         4              4            5          4           3

 11/30/2009      03/30/2010        Full          Joint b          5         5         4              4            5          4           4

 07/19/2010      12/10/2010       Target         FRB b            5         5         5              5            5          5           4

 01/24/2011      06/20/2011        Full          Joint b          5         5         5              5            5          5           5               PCA directive

 07/11/2011      09/30/2011       Target         FRB b            5         5         5              5            5          5           5

  a
      A CRE review was performed in conjunction with the full-scope examination.
  b
      The FDIC participated in this examination.


  November 2007 Full-Scope Examination Resulted in a CAMELS Composite 2 Rating

  In November 2007, FRB Kansas City began a full-scope examination of CBC that resulted in a
  CAMELS composite 2 (satisfactory) rating. CBC received 1 ratings for the asset quality and
  sensitivity to market risk components, and all other components received 2 ratings. The
  examination report, issued in February 2008, stated that CBC’s financial condition was
  satisfactory, that CBC had well-defined policies and an effective information and communication
  system, and that management had established a sound internal control environment supported by
  an active board of directors and senior management team.

  Examiners stated that CBC’s asset quality and credit risk management remained strong.
  According to examiners, while CBC’s credit risk was inherently high due to its CRE
  concentration, the bank’s sound risk management practices moderated the risk. Examiners noted
  that the board of directors developed a comprehensive CRE risk assessment and monitoring
  system designed to track the size of the bank’s CRE loan portfolio and its risks and to address
  key elements in SR Letter 07-1. Examiners also commented that the board of directors
  established guidance for acceptable risk limits by loan, property type, and geographic area and
  formalized reasonable risk tolerance limits. In addition, examiners noted that CBC implemented
  stress testing for changes in loan values and certain ratios as a part of its CRE procedures.
  Further, examiners stated that CBC’s ALLL was adequately funded, and its methodology was
  consistent with accounting standards.



                                                                19
While examiners acknowledged CBC’s efforts to enhance its risk management practices,
examiners expressed concerns about the bank’s sizeable CRE concentration and its “potential
risk” to capital. A significant portion of CBC’s loan portfolio consisted of residential,
condominium, and mixed-use real estate properties located in various Colorado mountain resorts.
Examiners noted that management anticipated “possible price volatility” in the mountain resort
markets because of declining real estate conditions. The examination report also stated that the
bank’s capital required close supervision in 2007 because of (1) high asset growth, (2) increased
risk, and (3) fluctuating capital ratios. Examiners also noted that management planned to limit
asset growth in 2008 to reduce the strain on capital.

In our opinion, the November 2007 examination presented an opportunity for an earlier
supervisory response. We believe that the bank’s elevated credit concentration, Colorado’s
declining real estate market conditions, and examiners’ acknowledgement of the risks to the
bank’s capital warranted closer examiner scrutiny of CBC’s risk management practices and its
credit risk exposure. In our view, examiners should have assessed CBC’s asset quality using a
forward-looking examination approach that considered potential risks to the bank’s overall
financial condition in a declining economy, as well as the current condition of the bank’s asset
quality. 9 We believe such an approach would have resulted in a component downgrade for
CBC’s asset quality. We also believe that FRB Kansas City should have strongly encouraged
CBC to raise additional capital commensurate with its credit risk exposure. FRB Kansas City
officials noted to us, in hindsight, the need for additional capital to mitigate CBC’s increasing
credit risk. In our opinion, the bank’s window of opportunity to raise additional capital closed
after this examination.

October 2008 Joint Full-Scope Examination Resulted in a Double Downgrade to a
CAMELS Composite 4 Rating and a Written Agreement

In October 2008, the State led a joint full-scope examination of CBC that resulted in a double
downgrade to a CAMELS composite 4 (poor) rating. Examiners downgraded the bank’s
earnings and liquidity components to 3 and double downgraded the capital and management
components ratings from 2 to 4 and the sensitivity to market risk rating from 1 to 3. Examiners
also triple downgraded the asset quality component rating from 1 to 4. The examination report,
issued in February 2009, stated that CBC’s overall condition had weakened due to a high level of
adverse classifications and inadequate capital in relation to the bank’s heightened risk profile.

The bank’s asset quality deteriorated significantly, as classified assets increased from
$23 million to $135 million in 12 months. Although examiners found CBC’s credit
administration generally adequate, they noted increased loan portfolio risk due to the bank’s high
CRE concentration. Examiners stated that declining real estate prices and borrowers’ financial
difficulties adversely affected the bank’s CRE portfolio; CRE loans accounted for approximately
72 percent of classified loans. Examiners also noted that the bank’s CRE risk management
practices and stress testing, mentioned in the February 2008 examination report, needed to
include an overall portfolio analysis. Further, examiners stated that CBC’s ALLL methodology
    9
      In September 2011, our office issued a report titled Summary Analysis of Failed Bank Reviews, which
analyzed failed state member bank reports that we issued between June 29, 2009, and June 30, 2011. In the report,
we noted the need for “forward-looking” examinations to timely address risks in deteriorating economic conditions.

                                                        20
was flawed because it did not reflect the heightened risk in the bank’s loan portfolio and required
an additional $11 million loan loss provision.

While the bank remained well capitalized, examiners determined that CBC’s capital was
deficient relative to its risk profile. Examiners stated that the bank’s capital position weakened
due to its CRE concentration, a significant increase in classified assets, and limited financial
support from the bank holding company. Examiners noted that CBC paid $11 million in
dividends during 2008 to support the bank holding company’s cash needs and stated that future
capital from the holding company was unlikely.

Concurrent with the full-scope examination, FRB Kansas City conducted a CRE review, which
focused on the bank’s CRE exposures, the risk to capital from CRE lending, the reliance on
revenue from CRE loans, and the potential risks to CBC’s liquidity due to deteriorating loan
quality. The CRE review report stated that (1) the bank was not identifying problem loans in a
timely manner, (2) the Colorado mountain resort real estate markets were declining, and (3) the
bank had limited experience in problem loan workout. The CRE review also identified
management’s failure to adhere to its own policies. Examiners stated that the bank’s stress-
testing methodology did not assess the CRE portfolio risks to capital. Moreover, examiners
criticized management for merely focusing on keeping the bank well capitalized and not
considering the bank’s increasing CRE concentration in its capital planning.

Due to deteriorating asset quality and the findings of the October 2008 full-scope examination,
CBC entered into a written agreement, which is a formal enforcement action, with FRB Kansas
City and the State in March 2009. The written agreement required CBC to, among other things,
(1) enhance overall risk management practices; (2) strengthen the board of directors’ oversight of
the management and operations of the bank; (3) enhance credit risk management practices,
including stress-testing methodology and procedures; (4) improve asset quality; (5) review and
revise the ALLL; (6) maintain sufficient capital; (7) address contingency funding plans;
(8) improve earnings; (9) restrict dividend payments and debt issuance; and (10) forecast cash
sources and uses.

In our opinion, the findings from this examination and the CRE review demonstrated that the risk
management practices examiners characterized as “strong” and “sound” during the November
2007 examination did not fare well under stressed economic conditions. CBC’s ineffective
identification of problem loans, inadequate ALLL methodology, and insufficient stress testing
resulted in rapid asset quality deterioration. While we acknowledge that FRB Kansas City
implemented a formal enforcement action as a result of the October 2008 examination, we note
that the poor performance of these risk management processes under stressed economic
conditions further supports our opinion that more aggressive supervisory action during the
November 2007 examination was needed. The triple downgrade for the bank’s asset quality
component strongly suggests that a more forward-looking examination approach and closer
scrutiny of the bank’s risk management practices were needed during the 2007 examination.




                                                21
June 2009 Target Examination Maintained a CAMELS Composite 4 Rating

In June 2009, FRB Kansas City conducted a target examination that focused on assessing overall
asset quality and the effectiveness of credit administration practices; reviewing capital, earnings,
and liquidity; and determining the bank’s compliance with the written agreement. Examiners
maintained the bank’s CAMELS composite 4 rating. The capital, asset quality, and management
components retained their 4 ratings, and the sensitivity to market risk component remained 3.
Examiners downgraded the liquidity component to 4 and double downgraded the earnings
component to 5.

Examiners characterized CBC’s asset quality as unsatisfactory and considered credit risk high
and increasing. The bank’s classified assets increased $44 million in seven months, from
$135 million to $179 million. Although examiners noted improvements in CBC’s internal loan
grading system and problem loan workout practices, nonperforming loans continued to increase.
CBC’s CRE exposure also remained significant, as CRE loans represented 84 percent of total
classified assets. Examiners noted that despite some improvement in management information
systems to help identify high-risk CRE loans, the bank did not fully implement portfolio-level
stress testing to quantify the effect of changing economic conditions. In addition, examiners
noted that CBC had a significantly higher risk profile than its peer group because of its
increasing problem loans and loan losses and that the bank’s ALLL did not keep pace with the
loss inherent in the portfolio. As a result, examiners required an additional loan loss provision of
$30 million.

Examiners deemed the bank’s earnings critically deficient based on a $4 million net loss for first
quarter 2009. According to examiners, the bank’s earnings prospects for the year were poor due
to additional loan loss provisions, tightening interest income, and increasing nonperforming
loans. Consequently, examiners considered CBC’s capital position deficient and stated that the
bank’s capital neither supported its heightened CRE risk exposure nor appropriately reflected the
increased risk in deteriorating asset quality. Examiners noted that CBC would fall to adequately
capitalized after the required $30 million loan loss provision and urged management to raise
additional capital.

While acknowledging efforts by management and the board of directors to comply with the
March 2009 written agreement, FRB Kansas City determined that CBC only partially complied
with the provisions of the formal enforcement action. Examiners noted that the bank had not
satisfied the written agreement’s provisions relating to (1) earnings performance improvement,
(2) classified asset reduction, (3) adequate loan loss reserves, and (4) capital-level maintenance.
Examiners required the board of directors and management to become fully compliant with the
written agreement.

November 2009 Joint Full-Scope Examination Resulted in a Downgrade to a CAMELS
Composite 5 Rating

In November 2009, FRB Kansas City led a joint full-scope examination that downgraded CBC’s
CAMELS composite rating to 5 (critically deficient). The capital and earnings components
received 5 ratings, and all other components received 4 ratings. Examiners expressed concerns

                                                 22
about CBC’s critically deficient condition and stated that the bank’s viability was threatened. In
the examination report, issued in March 2010, examiners urged management to take aggressive
action to return the bank to a satisfactory condition and raise additional capital.

CBC’s asset quality was unsatisfactory, as classified assets increased from $179 million to
$190 million in six months. Examiners attributed the bank’s deteriorating asset quality to
deficiencies in credit underwriting and management oversight and declining market conditions.
Although examiners acknowledged management’s efforts to reduce problem loans, examiners
cautioned management because loans worth a total of $111 million were listed as special
mention, which signaled potential future deterioration. 10 Additionally, examiners noted the
bank’s significant concentration in CLD loans and required CBC to improve CRE risk
management practices. Examiners reminded management to implement portfolio-wide stress
testing as required by the March 2009 written agreement. Examiners also required management
to recognize credit weaknesses in a timely manner and update loan grades to accurately reflect
the quality of the loans. CBC’s ALLL balance was again determined to be inadequate; as a
result, examiners required an additional $4 million loan loss provision.

Poor asset quality and earnings performance eroded the bank’s capital and resulted in a critically
deficient capital position. Examiners deemed CBC adequately capitalized and, consequently,
required the bank to maintain capital commensurate with its significant CRE concentration and
high volume of problem loans. Examiners stated that CBC’s capital plan lacked realistic
projections of loan loss provisions or firm commitments for new capital. Examiners commented
that the board of directors and management did not demonstrate the ability to resolve problems
and fully implement effective risk management practices. Examiners also recommended that
management develop a culture that promoted problem loan recognition. Further, examiners
noted that CBC’s efforts to comply with the written agreement were inadequate and urged the
bank once again to fully comply with its terms.

In our opinion, because of the multiple management failures noted during this examination, FRB
Kansas City should have downgraded the bank’s management component rating to 5 and
considered the need for an independent assessment evaluating the qualifications of CBC’s
management and the need for additional managerial resources.

FRB Kansas City Approved Merger of CBNC, Affording Community Bankshares More
Time to Raise Capital

In February 2010, FRB Kansas City received a merger application outlining Community
Bankshares’ plan to merge an affiliated institution, CBNC, into CBC. At the time, CBNC was in
a critically deficient condition and had a CAMELS composite 5 rating. The California DFI
issued a cease-and-desist order in October 2009 that required CBNC to increase capital by not
less than $10 million or enter into a definitive agreement to merge or sell the bank. Despite
Community Bankshares’ effort to raise capital, the holding company was only able to provide
$4.5 million. The California DFI determined that CBNC was in imminent danger of failure and


    10
       Assets categorized as special mention have weaknesses that deserve management’s close attention, but the
extent of risk to which they expose an institution does not warrant adverse classification.

                                                       23
requested that FRB Kansas City immediately act on the merger application under emergency
procedures.

The merger application required in-depth analysis because, by February 2010, CBC’s condition
had also deteriorated, and it had a CAMELS composite 4 rating that was downgraded to a 5 in
March 2010. FRB Kansas City approved the merger because it concluded that merging CBNC
into CBC would (1) not significantly impact CBC’s condition due to CBNC’s size relative to
CBC, (2) address potential liability under the FDIC’s cross-guarantee provisions if CBNC were
to fail, and (3) allow Community Bankshares more time to raise capital.

In our opinion, FRB Kansas City appropriately analyzed the effect of the proposed merger. We
believe that, had FRB Kansas City disapproved the merger, CBNC would have failed, triggering
the cross-guarantee provisions and thereby placing further strain on 4-rated CBC. In our
opinion, given the constraints of the situation, FRB Kansas City made a reasonable decision that
afforded Community Bankshares additional time to attempt to raise capital. 11

July 2010 Target Examination Maintained a CAMELS Composite 5 Rating

In July 2010, FRB Kansas City conducted a target examination that focused on CBC’s asset
quality, credit administration, capital, earnings, liquidity, and compliance with the March 2009
written agreement. The examination resulted in another CAMELS composite 5 rating. While
the capital and earnings components retained their 5 ratings and the sensitivity to market risk
component remained 4, FRB Kansas City downgraded the asset quality, management, and
liquidity components to 5 ratings. Examiners stated that CBC’s condition remained critically
deficient and emphasized the need for an immediate capital injection, strong board and
management oversight, improved credit risk management, and robust contingency funding
planning.

CBC’s asset quality continued to deteriorate and, according to examiners, presented “a growing
threat” to the bank’s viability. Classified assets increased from $190 million to $267 million,
and an additional $131 million in loans were listed as special mention during the examination.
The bank’s CRE loan concentration remained high, and declining real estate market conditions
continued to affect CBC’s loan portfolio. Examiners criticized the bank’s credit risk
management practices for inadequately identifying, measuring, monitoring, and controlling risks.
Examiners also concluded that CBC’s loan review was ineffective and its loan grading was
inaccurate. Examiners again reminded management of the importance of timely recognizing
credit weaknesses and accurately grading loans to reflect the current quality of the loans. In
addition, examiners concluded that the bank’s ALLL methodology was flawed and required a
minimum loan loss provision of $28 million.



    11
       SR Letter 98-28, Examinations of Insured Depository Institutions Prior to Membership or Mergers into State
Member Banks, establishes the criteria for conducting safety and soundness examinations of depository institutions
seeking to become, or merge into, a state member bank, as well as of the state member bank itself. FRB Kansas
City did not require any examinations pursuant to this SR letter because both CBNC and CBC were state member
banks under common control, so the requirements of the letter did not apply.

                                                       24
A December 2010 examination report stated that the bank’s earnings remained critically
deficient and resulted in a net loss of $36 million for the first six months of 2010. According to
examiners, CBC’s earnings forecasts were based on an unrealistic assessment of the bank’s risk
profile and did not provide adequate information for the board of directors and senior
management to oversee CBC’s financial performance. Examiners also noted the importance of
realistic earnings projections in developing an acceptable capital plan and cautioned that risks in
the bank’s loan portfolio must be properly identified in the capital plan to be accurate and
acceptable. Examiners deemed the bank undercapitalized and stressed the critical need for an
immediate capital injection commensurate with the bank’s increased risk profile.

January 2011 Joint Full-Scope Examination Resulted in Another CAMELS Composite 5
Rating and a PCA Directive

In January 2011, the State led a joint full-scope examination that determined CBC’s overall
condition to be unsound and resulted in all CAMELS components receiving 5 ratings. The June
2011 examination report stated that CBC had (1) rapidly declining asset quality, (2) critically
deficient earnings performance, (3) elevated credit risk, (4) inadequate capital, and
(5) unsatisfactory board of directors’ oversight. Examiners noted that the bank’s risk exposures
were not adequately measured, monitored, or controlled and required the board of directors to
promptly implement corrective measures to restore CBC to a sound condition.

Continued asset quality deterioration resulted in an increase in the bank’s classified assets in the
five months since the prior examination, from $267 million to $313 million. Examiners
attributed the bank’s critical condition to the board of directors’ strategic decision to focus on
CRE and CLD loans and urged management to reduce the bank’s CRE loan exposure. In
addition, examiners stated that the board of directors and management failed to implement timely
recognition of problem loans and that ineffective credit administration policies and procedures
caused significant loan grading inaccuracies. Examiners criticized CBC for failing to properly
assess the adequacy of its ALLL and stressed a need to incorporate all risk factors in the
methodology.

Earnings remained negative due to critically deficient asset quality, leading to a net loss of
$64 million for year-end 2010. According to examiners, negative earnings represented a distinct
threat to the bank’s viability through the erosion of capital. CBC fell to significantly
undercapitalized due to additional loan loss provisions in 2010. As a result, on February 8,
2011, the Federal Reserve Board issued a PCA directive requiring the bank to resolve its capital
deficiencies.

July 2011 Target Examination Maintained a CAMELS Composite 5 Rating

In July 2011, FRB Kansas City began a target examination that focused on asset quality, credit
administration, the ALLL, capital adequacy, earnings performance, and liquidity. In the
September 2011 examination report, examiners maintained CBC’s CAMELS composite 5 rating,
and all components remained 5 ratings. Examiners expressed strong concerns about CBC’s
condition and stated that without significant and immediate capital argumentation, “failure is
imminent.”

                                                25
CBC’s asset quality remained critically deficient. Since the January 2011 examination, CBC’s
classified assets had decreased from $313 million to $263 million, but they increased as a
percentage of tier 1 capital and the ALLL, from 273 percent to 353 percent, due to CBC’s
rapidly declining capital level. Classified assets consisted primarily of CRE loans located in the
Colorado mountain resort markets and Denver metropolitan area, and the bank’s CRE exposure
heightened as its capital eroded. Examiners encouraged management to continue to improve its
credit risk management practices, including identification of problem loans and development of
workout strategies. Examiners again concluded that the bank’s ALLL methodology was flawed
and required an additional $8 million loan loss provision for the first half of 2011.

Continuous losses from deteriorating asset quality severely depleted capital, and FRB Kansas
City notified CBC that it fell to critically undercapitalized in August 2011. Examiners stated
that the bank’s capital planning remained unacceptable due to unrealistic earnings projections
based on unreasonable loan loss expectations. Examiners noted that CBC had a plan to sell 16
branches and a significant volume of performing loans and deposits and, if successful, the bank
projected that the sale would result in approximately $10 million additional capital, bringing the
bank to an undercapitalized PCA designation. In addition, Community Bankshares submitted a
business plan to fund a $7.5 million capital injection; however, Community Bankshares only
provided $1 million.

FDIC Disapproved CBC’s Plan to Sell Branches and Became Receiver for CBC

Because CBC was deemed critically undercapitalized in August 2011, section 38 of the FDI Act
required that CBC receive written approval from the FDIC to enter into any material transaction
other than those entered into in the usual course of business. 12 Consequently, the FDIC
processed CBC’s application for the proposed sale of 16 branches to determine whether the
proposed sale would result in a viable bank. As a part of its review, the FDIC determined that
after the proposed transaction, CBC would have (1) a high-risk profile, (2) inadequate capital,
(3) a large concentration of problem assets, and (4) deficient earnings. In addition, the FDIC
concluded that CBC would fail regardless of whether the transaction was approved or denied and
that the estimated loss to the DIF after the branch sale would significantly exceed the loss
associated with liquidating CBC without the branch sale. Thus, on October 19, 2011, the FDIC
notified CBC that it would not approve the bank’s proposed transaction. The FDIC OIG
reviewed the FDIC’s handling of this matter and concluded that (1) the FDIC processed CBC’s
application for the material transaction consistent with its internal procedures and (2) the FDIC
followed its resolution processes and procedures as established in its manual.




    12
      A material transaction is an activity that is not in the usual course of business. Such activities include any
investment, expansion, acquisition, sale of assets, or other similar action for which a bank would have to notify the
appropriate federal banking agency.

                                                          26
CBC’s board of directors and management could not correct the bank’s capital deficiencies. On
October 20, 2011, FRB Kansas City confirmed that the State would not object to the Federal
Reserve Board appointing the FDIC as receiver for CBC, 13 which the Federal Reserve Board
subsequently did on October 21, 2011.

Conclusions and Lessons Learned
CBC failed because its board of directors and management did not adequately control the risks
associated with the bank’s growth strategy. The bank expanded within Colorado by merging
with multiple banks and establishing new branch locations from 2003 to 2007. This strategy
significantly increased the bank’s CRE lending activities, particularly in CLD loans. The board
of directors’ and management’s failure to effectively manage CBC’s CRE credit risk, coupled
with weakening real estate markets, led to asset quality deterioration. Mounting losses depleted
earnings and eroded capital, which prompted the Federal Reserve Board to appoint the FDIC as
receiver on October 21, 2011.

Our mandate under section 38(k) of the FDI Act provides us an opportunity to determine, in
hindsight, whether additional or alternative supervisory actions could have been taken to reduce
the likelihood of a bank’s failure or a loss to the DIF. We determined that FRB Kansas City
complied with the examination frequency guidelines for the time frame we reviewed, 2007
through 2011, and conducted regular off-site monitoring. However, our analysis of FRB Kansas
City’s supervision of CBC revealed that FRB Kansas City identified the bank’s heightened credit
risk and its potential threat to capital but should have taken earlier supervisory action to address
those issues. Specifically,

    ·    In the November 2007 examination, we believe that the bank’s elevated credit
         concentration, Colorado’s declining real estate market conditions, and examiners’
         acknowledgement of the risks to the bank’s capital warranted closer examiner scrutiny of
         CBC’s risk management practices and its credit risk exposure. The poor performance of
         CBC’s risk management processes under stressed economic conditions, as noted in the
         CRE review conducted concurrently during the October 2008 examination, further
         supported our view regarding the need for more aggressive supervisory action during the
         November 2007 examination. In our opinion, examiners should have assessed the bank’s
         asset quality using a forward-looking examination approach that considered potential
         risks to CBC’s overall financial condition in a declining economy, as well as the current
         condition of the bank’s asset quality. We believe such an approach would have resulted
         in a component downgrade for the bank’s asset quality. In our opinion, the triple
         downgrade for the asset quality component assigned during the October 2008
         examination supports our belief that a more aggressive action during the November 2007
         examination was needed. We also believe that FRB Kansas City should have strongly
         encouraged CBC to raise additional capital commensurate with the bank’s credit risk
         exposure. FRB Kansas City officials noted to us, in hindsight, the need for additional

    13
        According to correspondence between the State and FRB Kansas City, the State interpreted Colorado Revised
Statutes § 11-103-802(3)(b) to limit the exercise of the Colorado Commissioner’s emergency resolution authority to
situations involving insolvency or a liquidity failure, neither of which applied to CBC at the time.

                                                       27
       capital to mitigate CBC’s increasing credit risk. In our opinion, the bank’s window of
       opportunity to raise additional capital closed after the November 2007 examination.

   ·   The multiple management failures noted during the November 2009 full-scope
       examination suggested, in our opinion, that FRB Kansas City should have downgraded
       the management component rating to 5 and considered the need for an independent
       assessment to evaluate CBC management’s qualifications and the need for additional
       managerial resources.

In our opinion, in February 2010, FRB Kansas City appropriately analyzed the effect of the
proposed merger of affiliates CBC and CBNC, and made a reasonable decision to allow the
merger, which afforded Community Bankshares additional time to attempt to raise capital.

While we believe that FRB Kansas City had opportunities for earlier supervisory responses, it is
not possible for us to predict the effectiveness or outcome of any measures that might have been
taken. Therefore, we cannot evaluate the degree to which an earlier or alternative supervisory
response would have affected CBC’s financial deterioration or the ultimate cost to the DIF.

Lessons Learned

Although the failure of an individual institution does not necessarily provide sufficient evidence
to draw broad-based conclusions, we believe that CBC’s failure offers lessons learned that can
be applied by those supervising banks with similar characteristics and circumstances. CBC’s
failure illustrates (1) a bank’s vulnerability to changes in real estate markets when the bank’s
strategy features a high concentration in CRE loans, (2) the importance of a bank timely
implementing a robust credit risk management program designed to facilitate the identification
and management of concentrations, and (3) the importance of a forward-looking examination
approach that assesses various risk factors that could affect a bank’s condition.

Analysis of Comments
We provided a copy of our report to the Federal Reserve Board’s Division of Banking
Supervision and Regulation for review and comment. The Division Director stated that Banking
Supervision and Regulation staff concurred with the conclusions and lessons learned in the
report. His response is included as appendix 3.




                                                28
Appendixes
Appendix 1—Glossary of Banking and Regulatory Terms

Allowance for Loan and Lease Losses (ALLL)

A valuation reserve established and maintained by charges against the bank’s operating income.
As a valuation reserve, it is an estimate of uncollectible amounts that is used to reduce the book
value of loans and leases to the amount that is expected to be collected. The reserve must be
sufficient to absorb probable losses inherent in the institution’s loan and lease portfolio.

Cease-and-Desist Order

A formal supervisory enforcement action against a financial institution or an institution-affiliated
party that violates a law, rule, regulation, written commitment, or written agreement or that is
engaged in unsafe or unsound business practice. The order may require a financial institution or
institution-affiliated party to (1) stop engaging in specific practices or violations or (2) take
action to correct any resulting conditions. The provisions of a cease-and-desist order and the
problems found at the institution are more severe than those of a written agreement, which is the
least severe type of formal supervisory enforcement action.

Classified Assets

Loans that exhibit well-defined weaknesses and a distinct possibility of loss. Classified assets
are divided into more specific subcategories ranging from least to most severe: substandard,
doubtful, and loss. An asset classified as substandard is inadequately protected by the current
sound worth and paying capacity of the obligor or of the collateral pledged, if any. An asset
classified as doubtful has all the weaknesses inherent in one classified as substandard, with the
added characteristic that the weaknesses make full collection or liquidation highly questionable
and improbable. An asset classified as loss is considered uncollectible and of such little value
that its continuance as a bankable asset is not warranted.

Commercial Real Estate (CRE) Loans

Land development and construction loans (including one- to four-family residential and
commercial construction loans) and other land loans. CRE loans also include loans secured by
multifamily property and nonfarm, nonresidential property where the primary source of
repayment is derived from rental income associated with the property or the proceeds of the sale,
refinancing, or permanent financing of the property.

Concentration

A significant amount of direct or indirect extensions of credit and contingent obligations that
possess similar risk characteristics. Typically, loans to related groups of borrowers, loans
collateralized by a single security or securities with common characteristics, and loans to
borrowers with common characteristics within an industry have been included in homogeneous
risk groupings when assessing asset concentrations.


                                                31
Appendix 1 (continued)
Construction, Land, and Land Development (CLD) Loans

A subset of CRE loans, secured by real estate (including nonagricultural vacant land), for (1) on-
site construction of industrial, commercial, residential, or farm buildings and (2) land
development, including preconstruction preparatory work such as laying sewer and water pipes.

Enforcement Actions

The Federal Reserve Board has a broad range of enforcement powers that include formal or
informal enforcement actions that may be taken, typically after the completion of an on-site bank
examination. Formal enforcement actions consist of written agreements, temporary cease-and-
desist orders, cease-and-desist orders, prohibition and removal orders, and prompt corrective
action directives; informal enforcement actions include commitments, board resolutions, and
memorandums of understanding.

Nonperforming Loans

The sum of (1) the total of loans and lease financing receivables past due 90 or more days and
still accruing interest, (2) the total of nonaccrual loans and lease financing receivables, and
(3) the total of other real estate owned.

Prompt Corrective Action (PCA)
A framework of supervisory actions, set forth in 12 U.S.C. 1831o, for insured depository
institutions whose capital positions have declined below certain threshold levels. The framework
was intended to ensure that action is taken to resolve the problems of a financially troubled
institution at the least possible long-term loss to the DIF. The capital categories are well
capitalized, adequately capitalized, undercapitalized, significantly undercapitalized, and
critically undercapitalized.

Supervision and Regulation Letters (SR Letters)

SR letters are issued by the Federal Reserve Board’s Division of Banking Supervision and
Regulation. They address significant policy and procedural matters of continuing relevance to
the Federal Reserve Board’s supervisory effort. SR letters are for distribution to supervised
institutions as well as Federal Reserve Banks.




                                                32
Appendix 1 (continued)
Tier 1 Capital

The sum of core capital elements (common equity, including capital stock, surplus, and
undivided profits; qualifying noncumulative perpetual preferred stock; and minority interest in
the equity accounts of consolidated subsidiaries) less any amounts of goodwill, other intangible
assets, interest-only strips receivables and nonfinancial equity investments that are required to be
deducted, and unrealized holding losses in the available-for-sale equity portfolio, as well as any
investments in subsidiaries that the Federal Reserve determines should be deducted from tier 1
capital. Tier 1 capital elements represent the highest form of capital, namely, permanent equity.

Underwriting

Detailed credit analysis preceding the granting of a loan based on credit information furnished by
the borrower, such as employment history, salary, and financial statements; publicly available
information, such as the borrower’s credit history; and the lender’s evaluation of the borrower’s
credit needs and ability to pay.

Written Agreement

A formal supervisory enforcement action that is generally issued when a financial or institution-
affiliated party has multiple deficiencies that are serious enough to warrant formal action or that
have not been corrected under an informal action. It is an agreement between a financial
institution and the Federal Reserve Board or a Federal Reserve Bank that may require the
financial institution or the institution-affiliated party to (1) stop engaging in specific practices or
violations or (2) take action to correct any resulting conditions. The agreement may also require
the financial institution to provide ongoing information, such as progress reports. A written
agreement is the least severe of the formal enforcement actions.




                                                  33
Appendix 2—CAMELS Rating System
Under the current supervisory guidance, each institution is assigned a composite rating based on
an evaluation and rating of six essential components of the institution’s financial condition and
operations:

   ·   adequacy of capital
   ·   quality of assets
   ·   capability of management
   ·   quality and level of earnings
   ·   adequacy of liquidity
   ·   sensitivity to market risk

Evaluations of the components take into consideration the institution’s size and sophistication,
the nature and complexity of its activities, and its risk profile.

Composite and component ratings are assigned based on a 1–5 numerical scale. The highest
rating, 1, indicates the strongest performance and risk management practices and the least degree
of supervisory concern, while 5 indicates the weakest performance, inadequate risk management
practices, and the highest degree of supervisory concern.

Composite Rating Definition

The five composite ratings are defined and distinguished below. Composite ratings are based on
a careful evaluation of an institution’s managerial, operational, financial, and compliance
performance.

       Composite 1

       Financial institutions in this group are sound in every respect and generally have
       components rated 1 or 2. Any weaknesses are minor and can be handled in a routine
       manner by the board of directors and management. These financial institutions are the
       most capable of withstanding the vagaries of business conditions and are resistant to
       outside influences, such as economic instability in their trade area. These financial
       institutions are in substantial compliance with laws and regulations. As a result, these
       financial institutions exhibit the strongest performance and risk management practices
       relative to their size, complexity, and risk profile and give no cause for supervisory
       concern.




                                                35
Appendix 2 (continued)
     Composite 2

     Financial institutions in this group are fundamentally sound. For financial institutions to
     receive this rating, generally no component rating should be more severe than 3. Only
     moderate weaknesses are present and are well within the board of directors’ and
     management’s capabilities and willingness to correct. These financial institutions are
     stable and are capable of withstanding business fluctuations. These financial institutions
     are in substantial compliance with laws and regulations. Overall risk management
     practices are satisfactory relative to the institutions’ size, complexity, and risk profile. As
     there are no material supervisory concerns, the supervisory response is informal and
     limited.

     Composite 3

     Financial institutions in this group exhibit some degree of supervisory concern in one or
     more of the component areas. These financial institutions exhibit a combination of
     weaknesses that may range from moderate to severe; however, the magnitude of the
     deficiencies generally will not cause a component to be rated more severely than 4.
     Management may lack the ability or willingness to effectively address weaknesses within
     appropriate time frames. Financial institutions in this group generally are less capable of
     withstanding business fluctuations and are more vulnerable to outside influences than
     those institutions rated a composite 1 or 2. Additionally, these financial institutions may
     be in significant noncompliance with laws and regulations. Risk management practices
     may be less than satisfactory relative to the institutions’ size, complexity, and risk profile.
     These financial institutions require more than normal supervision, which may include
     formal or informal enforcement actions. Failure appears unlikely, however, given the
     overall strength and financial capacity of these institutions.

     Composite 4

     Financial institutions in this group generally exhibit unsafe and unsound practices or
     conditions. There are serious financial or managerial deficiencies that result in
     unsatisfactory performance. The problems range from severe to critically deficient. The
     board of directors and management are not satisfactorily addressing or resolving
     weaknesses and problems. Financial institutions in this group generally are not capable
     of withstanding business fluctuations and may be significantly noncompliant with laws
     and regulations. Risk management practices are generally unacceptable relative to the
     institutions’ size, complexity, and risk profile. Close supervisory attention is required; in
     most cases, formal enforcement action is necessary to address the problems. Institutions
     in this group pose a risk to the DIF. Failure is a distinct possibility if the problems and
     weaknesses are not satisfactorily addressed and resolved.




                                               36
Appendix 2 (continued)
     Composite 5

     Financial institutions in this group exhibit extremely unsafe and unsound practices or
     conditions; exhibit a critically deficient performance; often contain inadequate risk
     management practices relative to the institutions’ size, complexity, and risk profile; and
     are of the greatest supervisory concern. The volume and severity of problems are beyond
     management’s ability or willingness to control or correct. Immediate outside financial or
     other assistance is needed for these financial institutions to be viable. Ongoing
     supervisory attention is necessary. Institutions in this group pose a significant risk to the
     DIF, and failure is highly probable.




                                              37
Appendix 3—Division Director’s Comments

                   BOARD OF GOVERNORS OF THE FEDERAL RESERVE SYSTEM
                           DIVISION OF BANKING SUPERVISION AND REGULATION


  Date:     May 17, 2012
   To:      Anthony J. Castaldo, Associate Inspector General for Inspections and Evaluations
 From:      Michael S. Gibson, Director, Banking Supervision and Regulation
Subject:    Material Loss Review of Community Banks of Colorado



The staff of the Division of Banking Supervision and Regulation has reviewed the draft Material
Loss Review of Community Banks of Colorado (Community), Greenwood Village, Colorado
prepared by the Office of Inspector General in accordance with section 38(k) of the Federal
Deposit Insurance Act, as amended. The report finds that Community failed because its Board
of Directors and management did not adequately control the risks associated with the bank’s
growth strategy, which resulted in the bank’s concentrations in CRE and, particularly, CLD
lending. Bank management’s failure to effectively manage its credit risks combined with
weakening real estate markets resulted in asset quality deterioration, which impaired bank
earnings and capital. Community was supervised by the Federal Reserve Bank of Kansas City
(FRB Kansas City) under delegated authority from the Board.

The report notes that FRB Kansas City complied with examination frequency guidelines for the
time period that was reviewed, 2007 through 2011. Further, supervisors executed two
enforcement actions, a Written Agreement and a PCA Directive, and implemented all applicable
PCA provisions. The report recognizes that examiners identified heightened credit risks that
contributed to the bank’s failure, but concludes that FRB Kansas City did not take early enough
supervisory action to address those weaknesses. However, the report recognizes that it is not
possible to predict whether any earlier supervisory actions would have affected Community’s
financial deterioration. The report also states that FRB Kansas City appropriately analyzed
requests to merge a failing affiliated bank into Community early in 2010. That merger afforded
Community additional time to raise capital.

Banking Supervision and Regulation staff concurs with the conclusions and lessons learned in
the report. Community’s failure illustrates the risks associated with aggressive growth and high
concentrations of credit. It further illustrates the importance of establishing appropriate credit
risk management practices, and it reinforces the importance of a forward-looking examination
approach.



                                                39
Appendix 4—Principal Contributors to This Report
Chie N. Hogenmiller, Project Leader and Senior Auditor

Rachel Lucero, Auditor

Michael P. VanHuysen, Senior Office of Inspector General Manager




                                                 41
